Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
September 21, 2021
The Honorable Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
RE: United States v. State of Washington, No. 21-404
Dear Mr. Harris:
I am counsel of record for respondents State of Washington; Jay Robert Inslee, Governor of the State of
Washington; Joel Sacks, Director of the Washington State Department of Labor and Industries; and the
Washington State Department of Labor and Industries. A response to the cert petition is currently due
October 14, 2021.
Pursuant to Rule 30.4, Washington requests a 32-day extension to file a brief in opposition, to
November 15, 2021 (a 30-day extension falls on a Saturday). I have communicated with counsel for the
petitioner, and the United States does not object to the extension.
The primary reason for this request is to accommodate other concurrent deadlines, particularly an oral
argument and briefing in matters before Washington courts. I am currently scheduled to argue in the
Washington Supreme Court on September 28, 2021, in State of Washington v. Grocery Manufacturer’s
Association, No. 99407-2. Preparing for that argument will require many hours on top of my regular
workload in the short term, preventing me from spending the necessary time on this case until after the
argument. In addition, I and the rest of our small team that works on U.S. Supreme Court matters have
significant briefing responsibilities for other matters in Washington courts in October, including briefing
at the Washington Supreme Court and ongoing litigation challenging the constitutionality of several
recently enacted state laws.
The COVID-19 pandemic also continues to place additional and urgent advice and litigation
responsibilities on our office, especially our small Solicitor General Division. This workload includes
cases in both federal and state courts challenging various aspects of the State’s response to the COVID
crisis.
Thank you for your consideration of this request.
Sincerely,
signed by Noah Guzzo Purcell
Noah Guzzo Purcell Digitally
Date: 2021.09.21 14:02:47 -07'00'

Noah Purcell
Solicitor General
360-753-6200
wro
cc: Brian H. Fletcher, Counsel for Petitioners

